-Department of Health and Human Services
          OFFICE OF
    INSPECTOR   GENERAL




PROMOTION OF PRESCRIPTION DRUGS 

  THROUGH PAYMENTS AND GIF1S 





                 Richard P. Kusserow
                 INSPECTOR GENERAL

                      OEI-01-90-00480 

               EXECUTIVE                         SUMMARY

PURPOSES

The purposes of this study are to (1) describe the range of drug promotion practices
that involve physicians receiving money or other items of value from pharmaceutical
companies, (2) assessthe vulnerabilities such practices present, and (3) examine the
responses of government and private groups to inappropriate or illegal practices.

BACKGROUND

Much attention has focused recently on pharmaceutical companies’ promotional
techniques. The Senate Labor and Human Resources Committee conducted
hearings in December 1990 that highlighted questionable promotional practices. At
these hearings, the American Medical Association (AMA) and the Pharmaceutical
Manufacturers Association (P?%4) testified about ethical guidelines that the AMA
had just adopted and the PMA had fully endorsed to help their members avoid
potentially unethical &rations..

We focus in this report on many drug promotion techniques that have been used
recently and on the potential hazards each presents to physicians and the practice of
good medicine. Because this report is not based on a statistically valid sample of
physicians, we are not reporting on the extent of promotional practices involving
money or other items of value.

Our data were gathered from (1) interviews with physicians and pharmacists in six
hospitals, (2) ethical guidelines !>rotiu.-ed by various medical professional and industry
groups, and (3) a review of relevant academic and professional literature and mass
media.

This is the first of several repcrts on prescription drug promotion we plan to issue.
An upcoming report u;rl fo;;tis on the current prevalence of promotional practices
involving pharmaceutical companies offering money or other items of value to
physicians. Another report will evaluate the scientific merit and validity of
prescription drug advertising in medical journals.

FINDINGS

Phmzaceutical companies offer money and other items of value to physichs for a
mnge of puqxxeq j&n sponsotig inzpmnt educational activiries to active& promoting
their products. Q&m that have been used for pnmwtionul puqmes fail into four major
categork



                                            i
    1. 	   Studies - Pharmaceutical companies ask physicians to participate in many
           types of studies on FDA-approved drugs. The companies offer a wide variety
           of payments for physicians’ involvement, including per patient cash
           reimbursement, medical equipment, large grants, and trips.

    2.     Speaking Engagements - Pharmaceutical companies ask physicians to speak on
           topics ranging from complex surgical procedures to the positive attributes of
           the companies’ products. In return, speakers receive compensation in the
           form of honoraria and travel expenses.

    3. 	   Program Attendance - Pharmaceutical companies offer monetary payments,
           travel expenses, accommodations, meals, entertainment, and recreational
           activities to physicians for listening to and participating in programs ranging
-
           from descriptions of the latest academic medical research to round-table
           discussions about a particular product.

    4. 	   Gifts - Pharmaceutical companies offer physicians such gifts as items useful in
           medical practice, meals, promotional gadgets, valuable trips, and prizes.     .

    Bmnotional pm&es      involving items of value ap-    to Meet physicinns’ prescribing
    &&ns.

    .	     Studies have shown that physicians’ prescribing practices are affected by
           promotional efforts of pharmaceutical companies.

    .	     Experts warn about the obligation a pharmaceutical company’s gift or financial
           arrangement imposes on a physician to prescriie the company’s drugs.

    l	
           Many of the physicians we spoke with acknowledged that these types of d+g
           promotion have affected their prescribing decisions and expressed concern
           about the obligations imposed by money and other items of value.

    T-hemedical w?lumity a?adthe phamul~              ind&y consider certaiia pIrPudxu1
    practicer involving offkrs of money and other items of value to be inupp-tite.

    .	     Guidelines recently developed by AMA/PMA and other medical specialty
           groups advise members on specific promotions to be avoided.

    .	     Most of the physicians we spoke with view some aspects of accepting money
           and other items of value to be inappropriate.

    It ir unckar what fleet recently deveibped et-hid gldidi?W will have on
    phannaceutid companies andphy~




                                                ii
 .	    The guidelines do not specifically define acceptable and unacceptable
       sponsorship of and participation in studies.

 .     The guidelines are not backed by any enforcement mechanisms.

The Department of Health and Human Services has recently undertaken new t#ortB to
curb illegal and inappqniate pmmotional practices.

.	     The Office of Inspector General is currently investigating its first group of
       kickback cases involving promotional practices of pharmaceutical companies.

.	     The Food and Drug Administration has often commented on and forced
       changes in the content of promotional material, but thus far it has not
       addressed the methods of promotion. The FDA is drafting guidelines on
       scientific education and has expressed interest in regulating the use of
       research funding for promotional purposes.

CONCLUSION

Although it is not clear how prevalent illegal or jrappmpriate pr~~tional activitk arc
the concems mid by the pm&es described in thiv report wamznt jiuther nwnitorbzg of
dnlgpronwtiom




                                          .. .
                                          111
                        TABLE                         OF CONTENTS
ExEcuTIvESuMMARY 


INTRoDUcLloN                ..............................................                                           1


FINDINGS        ...................................................                                                  4
     .

Offers Used for Promotional Purposes. ...............................                                                4


Influence of Promotion on Prescribing.                           ...............................                     9


Medical C;ommunity and Industry Concerns. ...........................                                               11 


Effects of Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


HHS Efforts to Curb Illegal and Inappropriate Practices . . . . . . . . . . . . . . . . . . 15 


CONCLUSIOi~            . . . . . . . . . . . . . . . . . . . . . . . . . : . . . . . . . . . . . . . . . . . . . . . 17 


APPENDIX        A


     Examples of Promotional Studies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A-l

APPENDIX        B

     Ethical Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B-l

APPENDIX         c

     Methodological Notes . , . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-l

APPENDIX        D

     Endnotes        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . D-l
                         INTRODUCTION

PURPOSES

The purposes of this report are to (1) describe the range of drug promotion
practices that involve physicians receiving money or other items of value from
pharmaceutical companies, (2) assessthe vulnerabilities such practices present, and
(3) examine the government’s and the industry’s responses to inappropriate or illegal
practices.

BACKGROUND

Much attention has focused recently on pharmaceutical companies’ promotional
techniques. The Senate Labor and Human Resources Committee conducted
hearings in December 1990 that highlighted questionable promotional practices. At
the hearings, the Committee released a report that surveyed selected pharmaceutical
firms. Expenditures by these companies for symposia, reminder items, and samples
have skyrocketed since 1976 (the last time a similar survey was conducted).    __
Expenditures for gifts have also increased. The report spurred the Committee to
look into specific promotional practices.

Among the practices described in testimony by witnesses from the academic and
medical community were the followingl:
      *
             A widely publicized program sponsored by Wyeth-Ayerst Laborator&.
             The company developed a “Patient Profile Program,” ostensibly to
             gather information on the types of patients who were taking Indersl I,)‘.
             (propanalol hydrochloride). Physicians participating in the program
             were eligible to receive honoraria in collecting information on their
             patients taking Inderal LA. The honoraria ranged from medical
             textbooks to free airline tickets, depending on the number of patient;
             enrolled. Massachusetts’s Medicaid Fraud Control Unit began :+ninal
             proceedings against Wyeth-Ayerst under State anti-kickback StirLutes,
             but settled the case out of court for $195,000.
      *      A CIBA-GEIGY-sponsored seminar held in a Caribbean resort that
             touted their new product called Estraderm (estradiol transdermal
             system). The company paid all expenses for attendees and their
             spouses including airfare and first-class hotel accommodations and
             meals.




                                          1

       *      Numerous programs in which physicians were paid (usually $100) to
              attend either promotional seminars or round-table discussions on
              companies’ products.

Witnesses spoke of how expensive these promotions were and of their direct effects
on prescribing decisions. These practices were roundly criticized by hearing
participants and committee members.

At these hearings, the American Medical Association (AMA) and the Pharmaceutical
Manufacturers Association (PMA) testified about ethical guidelines that the AMA
had just adopted and the PMA had fully endorsed to help their members avoid
potentially unethical situations. Previous guidelines had not been specific about
which practices should be avoide d, leaving much interpretation up to individual
physicians and manufacturers. The new guidelines delineate several particular
                                             i
practices to avoid.

The hearings raised the public’s awareness of issues that have been publicized several
times over the last three decades. As early as the 1960’s, congressional hearings .
exposed widespread questionable pror notional practices. Senator Edward M.
Kennedy sponsored a series of hearing; in the i9’;o’s around these same issues and,
partly as a result, introduced S. 1831 in 1977. This bill’s enactment would have
resulted in a fairly comprehensive reform of pharmaceutical regulation. Among
other things, it would have prohibited “the transfer . . . of any gift, product,
premium, prize, or other things of value” from a person in the drug industry to any
physician or pharmacist “if the purpose of such transfer is to influence the
prescribing, administering, or dispensing of any such.drug.” The bill was passed
overwhelmingly in the Senate, but died in the House of Representatives. No
legislation was introduced in the recent hearings. 1

Our focus in this report is to summarize many of the problems highlighted by the
hearings and to detail some drug promotion techniques involving money or other
items of value that have been used recently. We.~+:*dlevaluate the potential hazards
these practices present to physicians and ,-he,practice of good medicine. We will
then summarize and evaluate the gov,,-,blent,
                                          _.     industry, and medical establishment
responses to inappropriate and/or illegal practices.

METHoDonr,v

To collect descriptions of pharmaceutical companies’ drug promotion techniques and
medical professionals’ perspectives on ,‘.hesepractices, we conducted detailed
interviews with 68 physicians and 7 pharmacists who practice in hospitals. [In the
coming months, a questionnaire will be mailed to a sample of approximately 1,000
physicians to gather statistically significant information about the prevalence of
various offers.] We asked about research, education, and other activities involving
money and other items of value being offered to physicians by pharmaceutical


                                          2
companies. To evaluate how these practices could affect the prescribing decisions 

and integrity of medical care, we supplemented our interview information with 

numerous academic and professional journal articles on the subject. 

To determine the response of industry and the medical establishment to 

inappropriate or illegal promotional activities, we contacted over 20 medical 

professional organizations and inquired about their ethical guidelines (see Appendix 

C). We received 10 official statements or guidelines. We also reviewed recent 

academic and business literature and mass media related to this topic and conducted 

discussions with key government officials. 


About the Interviews 


Our interviews were conducted at one teaching hospital and one community hospital 

within each of the following metropolitan areas: Boston, Massachusetts; Los Angeles, 

California; and Charlotte, North Carolina. The cities were chosen on the basis of 

geographic dispersion, size differences, and differences in health service availability. 

We chose the largest teaching hospital and the largest community (nonteaching) 

hospital available in each city. The physicians and pharmacists we interviewed were 

picked by the .chief executive officer of each hospital (Appendix C details the 

selection criteria). We spoke with medical professionals in hospitals to be able to 

profile hospital responses to inappropriate or illegal drug promotion. 


In general, our interviews focused on practices both in and out of the hospital 

setting. We asked some questions to hospital committee members and pharmacists 

about hospital-specific activity, but most of our questions focused on interactions 

between medical professionals and pharmaceutical companies. 


Our interviews were conCI.Licrcdprior to the publication of the new AMA guidelines 

and covered physicians’ experiences from up to five years prior to the interviews. 

This means that information we gathered cannot be used to test the effectiveness of 

the new guidelines or to di,cem any effects the recent wave of publicity might have 

had on promotion4 practices. 


 This is the first of several reports we plan to issue on prescription drug promotion. 

 Because we have not yet assessedthe extent of problematic practices, we do not 

 make recommendations here. Instead, we have developed conclusions that indicate 

 further courses of inquiry. An upcoming report will focus on the current prevalence 

 of promotional practices involving pharmaceutical companies offering money or other 

 items of value to physicians. The report will summarize results of a national survey 

 of physicians and will include recommendations on how HHS should respond to 

 inappropriate or illegal practices. Another report will evaluate the accuracy, 

 truthfulness, and educational value of prescription drug advertising in medical 

journals. Our findings will be based on assessments of advertisements made by 

physicians and pharmacists who serve as peer reviewers for major medical journals. 




                                            3

                                        FINDINGS

      Phainaaceutikal wnapti       offer money and other ikm of value tl~physicians for a
      mnge of purposes, frvm sponsorihg iin!=        edhcatbnal at+ities to actively promoting       .
      their producls. oft’ers that have been used for pmmothnal pqxxes fall info four major
      categories.

      1.     Studies - Pharmaceutical companies ask physicians to participate in many
             types of studies on FDA-approved drugs. The companies offer a wide variety
             of payments for physicians’ involvement, including per patient cash
             reimbursement, medical equipment, large grants, and trips. x

      Pharmaceutical companies sponsor studies for a variety of purposes. Commonly,
      companies conduct post-marketing research for the stated purpose of discovering
      scientifically relevant information about FDA-approved drugs. Although most studies
      have designs and methods that allow for these stated purposes to be addressed, some
      studies are either explicitly intended to promote or have the effect of promoting
      companies’ drugs.

      Physicians we interviewed seem to agree that studies can have promotional2 purposes
      as well as the stated purposes. Of the 68 physicians we spoke with, 9 mentioned
F,-   (without being asked) that they had been approached to participate in studies that
      had promotional purposes as well as the stated purposes. Examples of the -
      comments we heard include: “Drug companies couldn’t care less about the outcomes
      of comparative studies. They only are into it to market the drug to get 3o&:s
      familiar with it,” and “post-approval studies . . . are of questionable scientific validity.
      They’re primarily aimed at marketing.” Appendix A describes some of the studies
      recounted to us that appear promotional.

      Pharmaceutical companies use studies for promotional purposes in ,Ltaveralways: (1)
      they sponsor studies which are intended to familiarize physicians wnn the drug so
      that they will use it in the future; (2) they give physicians direct incentives to
      prescribe certain drugs; and (3) they compensate physicians generously for time spent
      doing research. It is often difficult to make distinctions between the scientific and
      promotional purposes of studies, but observers can make informed judgments by
      looking at the financial arrangements, the design and methodology of the studies, and
      the source of control of the study design and publishing.
Financial Arrangements

Pharmaceutical companies use financial arrangements in studies for promotional
purposes in a variety of ways. First, the companies can reimburse physicians for
time spent doing research more generously than is necessary to get them to conduct
the study. Sometimes payment is based on the amount of work required; sometimes
it is not. Per patient reimbursement offered to the physicians we interviewed varied
from $5 to $4,800, and grants to a physician or institution varied from $400 to
$150,000. There was no obvious correlation between the amount of money offered
and the apparent effort required. Other offers of payment included a trip to Hawaii,
a computer, and medical equipment. Second, pharmaceutical companies can give
direct incentives to prescribe certain drugs by paying the physician according to the
number of patients he or she enroils. For example, some physicians we interviewed
have been offered payments on the basis of the number of new patients (patients
who have never used the study drug) they put on the study, and others have been
offered payments on the basis of the number of patients they switched from another
drug. Third, payments are sometimes offered with strings attached. We interviewed
a pharmacist who is a member of a hospital’s formulary committee. He described
how one pharmaceutical company offered large research grants in exchange for a
physician requesting inclusion of one of the company’s drugs in the hospital
formulary.

Design and Methodology of Studies

Physicians are involved in studies that have a range of stated purposes:
       *      New Uses - testing new uses or new z!ministration of a drug;
       *      EXfectiveness - testing the effectiveness of a drug for its labeled use;
       *      Comparison - comparing one drug to .T,competitor’s drug or to the
              treatment of choice;
       *      Side Effects - screening patients for unknown side effects; and
       *      Marketing - assisting in developing marketing plans and testing
              marketing effectiveness.
The methods used vary in two main respect;; use of a control group and blinding of
the selection of test drug or control drug. Antrol groups can be:
       *      Placebo - treatment that has no chemical effect on the patient;
       *      Other Control - treatment of choice or a competitor’s drug; or
       *      No control.
Placement on the control versus study drug can be:
       *      Blinded - done without the patient being aware of the choice or
       *      Open label - done with both the patient and the physician being aware
              of the choice.

Some studies that encourage the physician to prescribe the study drug are not
designed to discover scientifically relevant results. Others may provide scientific data,
but also promote the company’s drug. Studies that use unacceptable scientific


                                            5
methods or require the physician to switch therapies from a competitor’s drug are
likely being used to promote the drugs to the physician-investigator. So-called
surveillance studies, which use open label designs and/or do not have control groups,
are not usually acceptable for generalizing about effectiveness or the advantages of
one drug over another,3 but they are widely used to screen for side effects.
Surveillance studies, however, may contain some elements of promotion, depending
on the financial arrangements and the stated purposes of the study.

The following table describes how different combinations of methods are used for
each stated purpose.

                                                TABLE       1

                                            Types of Studies

NEW USES              EFFECl’IVENESS        COMPARISON             SIDE EFFECTS           MARKETING

1. Blinded, placebo   1. Blinded, placebo    1. Blinded, other                            1.Openlabel, no.
   contrA                control                control                                     control
2 Open label, no      L Blinded, other      2 Open label, other
  control                control               COtltd
                      3. 	 Open label,
                           other contml
                      4. 	 Open label, no
                           conhvl

              Note: Italics indicate the methodsmore likely to be used for promotional purposes.
Control of Design and Publishing 


Pharmaceutical ?on+snies either sponsor independent research or generate their own 

protocols, methodologies, and other aspects of research designs, and choose which 

physicians they wish to involve. Their control can extend to the publishing of study 

findings; sometimes, pharmaceutical companies’ scientists control the writing of 

articles fc r medical journals. Promotional studies are much more likely than not to 

have ;!Y“qlaceutical company control of the research design and/or publishing.                               .


2. 	    Speaking Engagements - Pharmaceutical companies ask physicians to speak on
        topics ranging from complex surgical procedures to the positive attributes of
        the companies’ products. In return, speakers receive compensation in the
        form’ of honoraria and travel expenses.

Pharmaceutical companies are involved in almost every aspect of physicians’
continuing education. Almost ,a11these programs can be forums for physician-
speakers who are sponsored or paid by pharmaceutical companies.4 Depending on
the meeting, physicians may speak on highly academic subjects or may promote
specific products. Pharmaceutical companies support speakers by either contributing


                                                        6
         money to an institution’s or organization’s education fund or paying the speaker
         directly.

         Pharmaceutical companies use sponsorship of speakers for promotional purposes in
         two ways: they give physicians slides, notes, and/or a full text of a speech, which are
         slanted toward the companies’ products; or they pay the physicians very generous
         fees to speak on any topic (often the most influential physicians are paid the most).

         In our interviews, we heard about sponsorship of speakers that appears to have been
         done for promotional purposes. One example was a Los Angeles gynecologist’s
         experience. He showed us a notebook full of slides and presentation material that a
         pharmaceutical company had given to him. The slides and material showed GnRH
         agonists in general and the company’s drug specifically in a favorable light. An
         attached letter from the product manager said, we “share your excitement in this new
         class of compounds and we appreciate your continued support. We feel we have a
         winner with [the product] !” The physician refused to use these slides and stopped
         speaking for the company.

         Though it is difficult to judge what level of fees is excessive, physicians we sroke
         with mentioned being paid up to $1,000 for speaking locally and over $2,000 for
         speaking out of town. These fees are much higher than the typical honoraria of
         $lOO-$500 per speech.

         3. 	   Program Attendance - Pharmaceutical companies offer monetary payments,
                travel expenses, accommodations, meals, entertainment, and recreational
_-. ..          activities to physicians for listening to and participating in programszqing
                from descriptions of the latest academic medical research to round-table
                discussions about a particular product.                                -.’ .i

         Pharmaceutical company support of continuing medical education includes not only
         support for the speakers but also support for attendees. The companies supy!y
         meals in connection with hospital meetings and provide receptions and me& at large
         regional or national medical organization conferences. In addition, p@cians we
         interviewed spoke about special outings, baby-sitting services, transporration, and
         trinkets that were offered at these meetings.

         Pharmaceutical companies also sponsor their own meetings and conferences. These
         range from highly educational research presentations to discussions about the
         companies’ latest marketing material. The companies at these meetings sometimes
         pay for all expenses incurred by the attendee, including airfare, hotel, meals,
         entertainment, and recreational activities. In addition, some companies cover all or
         some expenses for a spouse or guest to attend the conference. They also
         occasionally offer honoraria for attendees, ranging from $50 to $500.




                                                     7

Although many of these programs are widely recognized as legitimate medical
education, the financial support given attendees is inherently promotional, since it is
not earned in any way. The support seems even more directly promotional when
discussions are focused primarily on the sponsoring company’s products as opposed
to a particular disease state, or programs are held in resort locations, or the topics,
speakers, and attendees are all chosen by the sponsoring company, or there is a high
ratio of free time and organized recreational activity to lecture and discussion time,
or additional guests are invited to attend.

One physician from the Los Angeles area described his experiences with
pharmaceutical company sponsorship of educational meetings. He had attended all-
expense-paid programs in many locations (for example, Phoenix, Tucson, Orlando,
Banff, and St. Thomas). r-Ie was most concerned, however, about a conference he
attended over one weekend at a Beverly Hills hotel at which accommodations, meals,
and travel expenses were paid by the sponsoring company. He and twenty other
physicians from around the country came to hear a renowned colleague speak. The
speaker ended up strongly advocating the use of a drug that was not yet on the
market. In return for his time, the physician received $500 from the company.   .

4. 	   Gifts - Pharmaceutical companies give physicians such gifts as items useful in
       medical practice, meals, promotional gadgets, valuable trips, and prizes.

Pharmaceutical sales representatives offer physicians gifts of all types when they meet
with them. These gifts are not given as payment for conducting research, acting as a
consultant, or making presentations for the company, but are presented to physicians
as part of a sales visit or marketing pack?g:., .Many of these gifts are useful in the
physicians’ offices, either for medical practice or for running of the office. Some
gifts are simply inexpensive promotionat r,‘:;m.s,
                                              
    others are more valuable and serve
no obvious professional purpose. The following table lists items that were offered by 

pharmaceutical sales representatives or through the mail to physicians we 

interviewed. 





                                           8

                                               TABLE 2
                                                 Gifts

PROMOTIONAL ITEMS                     PROMOTIONAL        ITEMS OF     PROMOTIONAL ITEMS OF 

USEFUL FOR MEDICAL                    LITlIE VALUE                    SIGNIFICANT VALUE 

PRACTICE


 Appointment books                   Breath mints                     Deep sea fishing trips 

 Calendars                           Candy                            Drawings for prizes 

 Clocks                              Coffee cup with candy in it      Drugs for personal/family use 

 Drugs for patient use               Golf balls                       Meals in restaurants 

Educational material                 Jump rope                        Tickets to spotting eventa and 

Flashlights                          Key chains                                 theater 

Literature sear+ea                   Meals&a&s in the hospital        Wine 

fiedical equipment                   Mugs

Note pads                            so& 

Pencils                              TayS 

Pens
Pointers
Post-it*    notes
Rulers
Textbooks
TrayS

Rmwional          pmctices involving iterm of value appear to affect p?zyisickms’prescribing
di?&ns.

.	        Studies have shown that physicians’ prescribing practices are affected by
          promotional efforts of pharmaceutical companies.

Research has sho.+il that physicians depend on commercial sources of information,
particularly for new drugs. Hemminki conducted a comprehensive review of the
literature on the fx.&rs affecting drug prescribing in 1975 and found that commercial
sources of information play a significant role in the decisions physicians make.5
Many other articles have described how promotion increases prescribing.6 Other
articles describe how first news of a drug usually comes from commercial sources.7
Bowman and +arre note that the funding source for continuing medical education
seminars at r: university medical center can affect prescribing.8 For three different
companies’ seminars, the sponsor’s product was more frequently prescribed by
physicians after they attended than before. One article disputes these studies,
however, and claims that increasing promotion does not affect demand for
prescription drugs?

Many of these articles relied on physician self-reporting, but one important study did
not. Avom and colleagues showed that doctors believed in the superiority of two
heavily promoted drugs over alternative forms of therapy, despite overwhelming
scientific evidence to the contrary. lo The study showed that doctors did not
acknowledge commercial sources of information to be important factors in their
prescribing decisions. They concluded that these doctors must have been relying on
promotional rather than scientific material in forming opinions about these drugs.


                                                     9
This study demonstrated two important points: physicians are often unaware of the
importance of commercial sources of information on their prescribing decisions and
drug promotion can influence physicians to make irrational prescribing decisions.

.	     Experts warn about the obligations a pharmaceutical company’s gift or
       financial arrangement imposes on a physician to prescribe the company’s
       drugs.

Chren and colleagues discuss in detail the relationship set up between doctors and
drug companies by gift giving. *l Although physicians may regard themselves as
unable to be bought, the acceptance of a gift places obligations on them. The
authors conclude that a gift need not be contingent on behavior in order to affect
prescribing decisions. Instead, they speak of more subtle ccnsequences: “Whenever a
physician accepts a gift from a drug company, an implicit relationship is established
between the physician and the company or its representative.~ Inherent in the
relationship is an obligation to respond to the gift; this obligation may influence the
physician’s decisions with regard to patient care.”

Goldfinger warns against the minor obligations that .acccpting a free trip to a resort
location to attend a CME seminar might confer.12 He a&s, “Isn’t it a bit sleazy to
take the corsage without at least yielding its sender a place on one’s dance card?”

An American Medical Association Report of the Council on Ethical and Judicial
Affairs describes two recent studies that examined the promotional influence of gift
giving.13 One says that salespeople give gifts to potential buyers because they believe
the gifts impose obligations to respond and therefore will increase. sales.14 The other
shows how the accepting of a gift, even a small one, positively affects the receiver’s
perception of a company’s product.15

Even if a gift is simply a matter of supporting legitimate continuing medical
education, the presentation of the material can be biased. Drug company
sponsorship of continuing medical education can slant the content of material
presented toward the positive aspects of the sponsoring conoany’s drug.16

.	     Many of the physicians we spoke with acknowledged that these types of drug
       promotion have affected their prescribing decisions and expressed concern
       about the subsequent obligations that money and other items of value impose.

Of the 12 physicians who responded to our question about the effect of
pharmaceutical company-sponsored research funding on .:heir prescribing decisions, 4
reported that they use the study drug more than they did prior to starting the study.
Of the 68 physicians we spoke with, 22 said their attendance at pharmaceutical
company-sponsored meetings could lead to changes in their prescribing decisions,
although many of these doctors qualified their responses to note that this would
occur only if the information presented was of sufficient force and credibility. The


                                           10
physicians who responded that they would not change their prescribing were asked a
follow-up question about why companies might sponsor programs that did not result
in prescribing changes favoring the sponsor. Of the 33 physicians responding, 14 said
that there must be some who, unlike themselves, do switch drugs as a result of
attending programs and 14 also said that companies sponsor these programs as a
form of advertising, promotion, or enhancing name recognition. Only 7 physicians
said the purpose of the programs was as stated: to educate doctors about the
companies’ products and make them aware of new product development.

In responding to a question about whether financial offers can have inappropriate
effects on prescribing behavior, most physicians we spoke with responded yes (42 of
68 physicians). Another 14 said that it depends on the individual. One Charlotte
area physician responded, “A doctor who tells you he’s not influenced is naive or
lying.” A Los Angeles area director of medicine at a large teaching hospital agreed
that financial offers can have an effect on prescribing decisions and said, “I am
amazed at the number of physicians who don’t believe this.” A Boston area
physician simply said that there is an implied quid quo pro with offers of money,
travel, and other material goods. A Charlotte area internist talked about how a gift
obligates the physician to pay att,ntion to the sales representative. One obstetrician
from Charlotte was up front about the potential obligation: “If someone paid me to
go to San Francisco, I’d feel obligated to write prescriptions for them.”

Ihe rrmiical cor?lmmdy and the pharmaceutical industry consider certain promotional
pmcticts involving offers of money and other iterrs of value to be inappropriate.

.	     Guidelines recently developed by AMA WIA and other medical specialty
       groups advise members on specific promotions to be avoided.

On December 3, 1990, the American Medical Asbociation revised its ethical code to
incorporate new guidelines on gifts to physicians from the industry.” The
Pharmaceutical Manufacturers Association endorsed these guidelines in full. These
guidelines (see Appendix B) define acceptab!-, and unacceptable offers in some
areas. The following are specified by r% guidelines as offers that are not appropriate
for physicians to accept or pharmact~:!sal companies to offer:
       *      Gifts of cash
       *      Gifts that are not related to the physician’s work or that do not entail
              benefits to the patient
       *      The cost of travel, lodging, and other personal expenses of physicians
              attending meetings
       *      Subsidies to compensate for the physician’s time attending a meeting
       *      Token consulting arrangements
       *      Gifts with strings attached




                                           11 

Although most of the medical organizations we contacted provided us with guidelines
that do not specify practices to avoid, l8 those received from some other groups do
single out unacceptable practices (see Appendix B for complete texts):
       *	     American Surgical Association: Giving papers or lectures that are
              promotional. Accepting money, gifts, and gratuities as a reward for
              participating in promotional activities.lg
                                                                                            .
       *      American College of Obstetricians and Gynecologists (ACOG):        Letting
              provision of research funds affect the experimental design,
              methodology, or results of studies.20
       *      American College of Cardiology: Accepting large gifts. Accepiing
              dinners or entertainment given to discuss a representative’s product.21
       *      Infectious Diseases Society of America (IDSA): Accepting research
              funding directly from the pharmaceutical company rather than having
              the funding flow through an institution.=

‘Two groups characterize ethical activities as follows:
       *      The Accreditation Council for Continuing Medical Association states
              that funding for CME programs should be made in the form of an
              educational grant to the sponsor of the program. Full disclosure of
              sponsorship should be made. Sponsors should not pay for travel,
              lodging, honoraria, or personal expenses of attendeesD                        _.. I

       *      The Vandenwx Group, which provides communication services for the                 T\

              pharmaceutical industry, recently adopted a code of principles in 

              response to the AMA/PMA guidelines. The code limits items of value 

              given to physicians in return for attending events to articles useful for 

              medical practice.” 


.	     Most of the physicians we spoke with view some aspects of accepting money
       and other items of value to be inappropriate.

Over 80 percent (51 of 62 responding to the question) of the physicians we
interviewed .identified ‘at least one type or aspect of educational programs they
considered inappropriate, while over 70 percent (50 of 68 responding to the
question) identified at least one type or aspect of drug company sponsored researcir
as such.= Popular responses were very general: the most common type of research
thought to be inappropriate were studies designed to market a drug or those which
had no scientific merit, while the loosely defined term “junket” was mentioned most
frequently as an inappropriate educational program.



                                            12 

However, some specific features of both educational programs and research were
mentioned by physicians we interviewed as being inappropriate. The following
specific pharmaceutical company activities were mentioned by physicians we
interviewed as being inappropriate: paying the audience to attend an educational
program (mentioned by 15 respondents), conducting discussions on a single product
(13 mentions), influencing what a speaker says at an educational program (12
mentions), paying travel expenses to attend an educational program (9 mentions),
sponsoring one-sided or biased presentations (8 mentions), selecting the speakers (5
mentions), paying physicians to attend focus group sessions (4 mentions), controlling
the release or publishing of study data (4 mentions), analyzing the study data (3
mentions), and paying per case reimbursement for studies (2 mentions).

It iv unclear what ejfect recent@devekped ethical guik%     wit? hve on
phalnlaceulical companies and physicians.

The press and academic community have focused much attention on the issues raised
here. Publications as diverse as the American Journal of Hospital Pharmacists and
SELF magazine have detailed potentially inappropriate promotiona: practices and
their relation to the AMA/PMA guidelines. 26 At least one pharmaceutical company
has responded to the wave of publicity by publishing a statement of prmciples.
Merck Sharp & Dohme (MSD)27 placed a two-page ad in major medical journals
detailing the principles guiding its promotional activities. These essentially echo the
AMA/PMA guidelines. MSD has asked physicians to evaluate whether the company
is indeed in compliance with these guidelines and whether its principles follow those
of the AMA guidelines. The AMA’s general counsel has stated that he perceives
practices to have changed significantly because of the guidelines: “The major gifts to
physicians that raised the most controversy, lodging and travel to educational events
are, for the large part, over.lm

.	    The guidelines do not specifically define acceptable and unacceptable
      sponsorship of and participation in studies.

The AMA/PMA guidelines, which are the focus of much of the oubiicity, speak to
study sponsorship and participation in two subsections:
      *      “It is appropriate for consultants who provide genuine services to
             receive reasonable compensation. . . . Token consulting or advisory
             arrangements cannot be used to justify the compensation of physicians
             for their time or their travel, lodging, and other out-of-pocket
             expenses.”
      *      “No gifts should be accepted if there are strings attached. For
             example, physicians should not accept gifts if they are given in relation
             to the physician’s prescribing practices.”



                                          13 

The guidelines, however, do not clarify what distinguishes genuine services from
token consulting or advisory arrangements or whether study reimbursement based on
the number of patients enrolled constitutes a “strings attached” gift.

ACOG’s guidelines do not allow pharmaceutical companies to control the design of
studies or the publishing of data, and the IDSA guidelines would rule out direct
funding of research by pharmaceutical companies. But these guidelines, despite
having been released several years ago, are not widely known or publicized and are
directed only to a limited number of specialists.

.      The guidelines are not backed by any enforcement mechanisms.

The American Medical Association has no enforcement authority. The AMA has
decided at least one promotion was in violation of the guidelines since the publishing
of the guidelines. Their response has been to write to the physicians known to be
involved to advise them that they are violating their profession’s code of ethics.2g At
the Senate hearings, the AMA stated that it expected most state and local licensing
boards would adopt the guidelines in full and thus would be able to sanction doctors
who were outside the gui:!elines. It is. not clear, however, what effect incorporating
the guidelines into state medical board codes would have,30nor is there any
requirement that the boards incorporate these guidelines into their ethical codes.

The Pharmaceutical Manufacturers Association plans to enforce its guidelines in the
same manner as it has the International Federation of Pharmaceutical Manufacturers
Associations (IFPMA) Code of Pharmaceutical Marketing Practices. That is, when
the PMA receives a complaint, it sends the complaint to the PMA member that is
the subject of the alleged breach, and the PMA member responds in writing. Gerald
Mossinghoff, president of the PMA, -has said that this “procedure has resulted in
satisfactory resolution of each and every Jleged breach of the IFPMA Code by PMA
members over the years.‘31 But these complaints and responses are not generally
public information, nor is any kind of disciplinary action taken if a promotion falls
outside the code. One promotion ths; began prior to the release of the guidelines,
but included activities that toC’< place in early May clearly is in violation of the PMA
guidelines. PMA deferred j;=1;yament
                                  y      on this promotion to the AMA because of the
start date of the promotion.52

Other organizations are explicit in recognizing that they have no ability or desire to
enforce their guidelines. For example:
       *      “The [Infect:cJs Diseases] Society [of America] recognizes its inability
              to legislate the morals of its members and of those with whom they
              interact.“33

       *      ‘The position presented here by the American Surgical Association
              does not connote any direct restriction or punitive action.“34


                                           14
       *      “Because recommendations in individual cases nearly always have to be
              based on reasoned judgments rather than on rote application of an
              encyclopedic set of rules, our [the American College of Cardiology’s]
              attention should focus on guidelines rather than rules.“35

77~ Lkpartrnht of Health and Human Services bus recent& undertaken new q@on3to
curb illegal and inappmpriate pmnwtional pmctikes.

.	     The HI% Office of Inspector General (OIG) is currently investigating its first
       group of kickback cases involving promotional practices of pharmaceutical
       companies.

The Medicare and Medicaid anti-kickback provisions (42 U.S.C. 1320a-7b) apply to
financial -:ransactions between pharmaceutical companies and physicians. The law
reads in part:

       “Whcever . . . solicits or receives any remuneration . . . in cash or in kind
       . . . in return for purchasing, leasing, ordering, or arranging for or
       recommtnding purchasing, leasing, or ordering any good . . . for which
       payment may be made [by Medicare or Medicaid] shall be guilty of a felony
       . . Whoever offers or pays any remuneration . . . in cash or in kind to any
       person to induce such person . . . to purchase, lease, order, or arrange for
       or recommend purchasing, leasing, or ordering any good . . . for which
       payment may be made [by Medicare or Medicaid] shall be guilty of a felony.”

Traditional applications of this law involve cases in which doctors are paid
remunerations to refer patients to certain laboratories or specialists. But the law
also applies to ic o;:tor who is paid remunerations to prescribe or otherwise
recommend a drug which is covered by Medicare or Medicaid.

The OIG is currl;ntly investigating Wyeth-Ayerst’s “Patient Profile Program” (see p.
1) and i.: collecting information about many other promotional programs offered by
nuns rr’ls pharmaceutical companies. Investigators have expressed a desire to
expana the choice of remedies and penalties available to punish violators of the law
and protect the Medicare and State health care programs.

.	    The Food and Drug Administration (FDA) has often commented on and
      forced changes in the content of promotional material, but thus far, it has not
      addressed the methods of promotion. The FDA is drafting guidelines on
      scientific education and has expressed interest in regulating the use of
      research funding for promotional purposes.

The FDA is charged with regulating the content of all packaging and advertising
material related to pharmaceutical drugs. They have interpreted this authority to


                                           15
include all forms of drug promotion. Promotional material must be balanced in its
presentation of indications and contraindications, effects, and side effects. It may not
include unsubstantiated claims of superiority or discuss uses that have not been
approved by the FDA. The FDA focuses most of its promotional oversight attention
on journal advertising. It also attempts to monitor educational programs (again for
content), but has limited resources for this purpose.

The FDA has no control over the financial relationships between manufacturers and
physicians, although it can and does use these financial relationships to determine
whether particular statements are promotion (which the FDA can regulate) or
scientific communication (which it cannot regulate).

The new Commissioner of the FDA. believes the FDA can play an important role in
preventing physicians and others from being misled by promotional activities.% In
this regard, he has sought and received approval to add ‘staff to the Division of Drug
Advertising and Labeling to allow more resources for promotion oversight.37 Central
in this staff development has been the appointment of a new director of the Division.
The new Director has stated the importance of regulating “promotional activities in
the guise of scientific exchanges.“ss The FDA is a:;o active in gathering information
about various types of promotion, such as company sponsorship at medical
meetings.3g As part of this effort, the FDA is planning to set up a hot line for
physicians and pharmacists to phone if they are aware of inappropriate promotional
practices.‘+O

In addition, the FDA is drafting guidelines for scientific education,41 which should
significantly clarify what is viewed as promotion versus what is viewed as education.
The FDA has expressed interest in regulating the use of studies for promotional
purposes. One of its officials recently talked about how open label studies “can
present problems in that they can represent an effort to promote. . . . an
unapproved use.“42 He said the Advertising Division would have no hesitation in
halting clinical studies and calling for revised protocols when they promote
unapproved uses.




                                           16 

                            CONCLUSION 


Aldwugh it is rwt clear how prevaknt illegal or inappropriate pronwtional activitk are,
the concems mired by the pmcticts dksribed in this report warrant jiuther nwnitoring of
drug pnNTwtio?L

Drug promotion activities warrant continued attention for many reasons. Direct
adverse effects on prescribing decisions may occur as a result of promotional
activities. Some practices may indeed be illegal, violating the Medicare and Medicaid
anti-kickback statutes. Additionally, acceptance of promotion-related money or other
items of value from pharmaceutical companies has the appearance of impropriety.
This appearance is damaging to the public’s confidence in the medical profession.
Although our interviews indicate that potentially inappropriate practices may be
widespread, more recent activities (the AMA/PMA guidelines) appear to have
changed the way promotion is conducted. If, however, the guidelines prove
ineffective because of weaknesses meaticned in this report, inappropriate or illegal
promotions could continue. To keep abreast of changes related to these activities,
the OIG will continue its research in this area and will formally survey physicians to
determine the current prevalence of promotional practices involving payments and
gifts. In addition, the OIG will continue to pursue cases against apparent violators of
the Medicare and Medicaid anti-kickback statutes.




                                          17 

                           APPENDIX                  A

              Descriptions of Studies Used for Promotional Purposes


Some of the studies that were described to us appear to have encouraged the
physician to prescribe the company’s drug. The following are examples:
*
      One gastroenterologist from the Los Angeles area was involved in conducting
      a study examining the relative effectiveness of four dosing regimes for one
      ulcer treatment. The maker of the drug approached the physician with a
      study methodology, which included a requirement that the patients involved in
      the study be currently taking another drug. The study was being conducted in
      multiple sites around the country, was not controlled, and did not require -.
      blinding. The physician was being paid by the company on the basis of the
      number of patients he enrolled.
*     A cardiologist who practices in the Charlotte area conducted a study looking
      into the efficacy and side effects of one company’s beta blocker. The
      company offered the physician $100 per patient to collect what the physician
      called only a few pieces of data. The company designed the methodology,
      which included no controls and was open label. The study was conducted in
      multiple sites throughout the country. The physician did not think the results
      were scientifically relevant or useful; the company, he said, was not trying to
      do real research, but was using this as a marketing method.
*     An infectious disease specialist in the Boston area was invited to participate as
      &,,Iinvestigator in a nationwide trial of the efficacy and safety of a new
      intravenous form of an approved antibiotic drug. The drug’s IV form was
      about to be approved at the time (the study would not start until after the
      ?‘,ug was approved). The investigator was to enroll 10 patients having certain
      diagnoses and fill out a “brief two-page Clinical Evaluation Form.” In return,
      the physicians involved were to receive $30 for each completed form and
      Category II Continuing Medical Education credits. The results were to be
      analyzed and written up by scientists at the company.
*     An oncology specialist in the Charlotte area was asked to give an ulcer
      medication to patients free of charge and collect minimal information on the
      patients. The sponsoring company was not planning to publish the results of
      the study, and they offered him a piece of medical equipment as, according to
      the physician, “a prize” for participating. He refused to do the study, because
      he did not consider it good science.




                                        A -1 

APPENDIX               B





  Ethical Guidelines




       B-l
           Report     as filed     by the Rouse of Delegates           on December       4, 1990


                                       American      Medical   Association

                   REPORT OF THE COUNCIL ON ETHICAL AND JUDICIAL                   AFFAIRS


                                                                                     Report:   F
                                                                                     (I-90)

      Subject: 	            Opinion      of    the Council    on Ethical      and Judicial
                            Af f airs--Gif       ts to Physicians     from    Industry

      Presented      by:    Richard     J. McMurray,       MD, Chairman

      Referred      to: 	   Reference      Committee on Amendments to
                            CJns titution.    and Bylaws
                            (David B. Carmichael,        Jr., MD, Chairman)



  1           The Council  on Ethical and Judicial   Affair6                   submits  the
  2   following    opinion  to the Rouse of Delegate6     for                it6 information       and
  3   recommend6 that this report     be filed.
  4
 5            GIFTS TO PIIYSICIANS FROM INDUSTRY. Many gifts                     given to
 6    physicians       by companies      in the pharmaceutical,          device and medical
  7   equipment      industries     serve an important           and socially     beneficial
 8    function.        For example,      companies have long provided              fund6 for
  9   educational        seminar6   and conferences.            Uowever , there ha6 been
10    growing     concern about certain           gift6    from industry      to physicians.
11    Some gift6       that reflect      customary      practice6     of industry      may not be
12    consistent       with princin1s.l;     of medical       ethics.    To avoid the
13    acceptance       of inappropriate       gifts,     physicians     should observe       the
14    following     guidelines:
15
16            1. Any gift6      accepted    by physician6     individually       should
17    primarily     entail    a benefit    to patient6     and should not be of
18    substantial      value ., Accordingly,       textbook6,    modest meals and other
19    gift6     are appropriate     if they 6erve a genuine          educational
20    function.      Cash !aymr,nts     should not be accepted.
21
22           2.  Individual  gifts             of minimal   value   are permissible     a6 long
23    a6 the gif t6 are related               to the physician’6     work (e.g.,    pen6 and
24    notepads).
25
26           3.    Subsidies      to underwrite      the costs         of continuing      medical
27    education     conferences      or professional          meetings       can contribute       to
28    the improvement        of patient    care and therefcre               are permissible.
29    Since the giving         of a subsidy     directly        to a physician       by a
30    company’6     sales representative         may create          a relationship       which
31    could influence        the u6e of ,the company’6 product6,                  any subsidy
32    should be accepted         by the conference’6            sponsor who in turn can use
33    the money to reduce the conference’6                   registration       fee.    Payment6 to
34    defray    the costs of a conference            should not be accepted             directly
35    from the company by the physicians                 attending        the conference.
         CEJA Rep. F - page 2


  1              4.     Subsidiee    from indue try should not be accepted                   to pay for
  2       the co6 te of travel,          lodging     or other pereonal         expeneee of
  3      physician6       attending      conference6       or meetinge,     nor should 6Ub6idie6
  4      be accepted        to compenrrate for the phyeiciane’               time.       Subeidies    for
  5      hospitality        should not be accepted           outside    of modeet meals or
  G      social      event6 .held ae a part of a conference                or meeting.          It i6
  7      appropriate        for faculty      at conference6        or meeting6       to accept
  8      reaeonable       honoraria      and to accept reimbureement              for reaeonable
  9      travel,      lodging     and meal expenses.           It it3 also appropriate            for
10       consultants        who provide      genuine     services     to receive       reasonable
11       compensation         and to accept reimbursement            for reasonable          travel,
12       lodging      and meal expensee.          Token consulting         or advisory
13       arrangement6         cannot be ueed to justify            compensating        physician6     for
14       their     time or their       travel,     lodging     atid other out-of-pocket
15       expenses.
16
I.7             5.   Scholarship      or other special        Eunds to permit      medical 

18       studente,     resident6     and Eellows   to attend        carefully   selected 

19       educatioual      conferences    may be permissible          a6 long a8 the selection 

20       of 6 tude4i te , resident6     or fellow6     who will      receive  the fund6 is 

21       rade by the acaclemic        or training    institution. 

22 

23               6. No gif t6 should be accepted            iE there are 6 trings
24       attached.        For example,    phyeicians     ehould not accept gifts          if they
25       are given in relation         to the physician’6        prescribing     practice6.       In
26       addition,       when companies underwrite         medical   conference6     or lecture6
27       other     than their    own, responeibility        for and control      over the
28       selection       of content,   faculty    , educational     me thode and mu teriale
29       should     -belong to the organizers        of the conference6       or lectures.




            -   . ,   .,   I   .   .       .   _.   .   .   .          .       ..-.
  Z”..
    Committee on Ethics                                                                Number 45-October                1985



               Guidelines for Relationships   Between
               Industry and the Amerkan     College of
              Obstetricians and Gynecologists    and Its
                              Fellows
              The American College of Obstetricians and              vidual physicians are responsible for their
        Gynecologists recognizes that companies in the               own behavior as it relates to noneducational
        health care industry, such as manufacturersof phar-          promotiorts and should be aware of the
       maceuticals and medical devices, assist the College           potential for ethical problems generated by
       in pursuit of its educational goals and objectives            such promotions.
       through sponsorship and financial support of var-         3. Company promotion to individual physicians and
       ious medical educational programs.                           groups, including specialty societies,hospitals,
              In the course of such interactions, there is the      and medical schools,through the support of edu­
7      possibility that company expenditures will generate          cational activities, honorary awards, research
       some degree of bias unrelated to product merit, cre­         grants, and developmentcontracts. Whenever
       ating the actuality or the appearance of inappro­             there is a relationship between the College
       priate and undue influence. .When any product pro-           and industry in the educational area, it is
       motion leads to inappropriate or unbalanced medical           desirabls-for the College and its Districts
       advice or recommendation to patients, an ethical             and Sections to establish basic principles
       problem exists. The public holds physicians to a             govemine industry’s participation in the
       high standard of medical advice, and such advice             support a::d ‘s;;onsorship of educational
       should be as accurate, balanced, com,p!ete, and              activitres. Support of educational programs
       devoid of bias as possible.                                  and the provision of awards, grants, and
             Industry-physician interactions can be divided         contracts may be accepted by the College
      into three major types, as characterized in the fol­          and its members if such support is offered
      lowing paragraphs. Ethical implications specific to           in accordance with the following guidelines:
      these types of interactions suggest areas in which
      the College and its Fellows should particularly strive       .-‘. A*vards should be based on merit (socie­
      to be circumspect.                                                  .al, educational, or scientific) and should
                                                                         be granted on a competitive basis.
          1. 	 Product promotion to individual physicians by       b. 	 No obligation should be imposed or
               advertising, personalcommunicution, and provi­            implied by the provision of funds. Provi­
               sion of samples.The physician has an obliga­              sion of funds should not affect the
               tion to go beyond the information provided                experimental design, methodology, or
               through advertising in selecting the best                 results of grant-supported programs. No
               product for care of the patient.                          topic or speaker restrictions on educa­
          2. 	 Company promotion to individual physicilins and           tional programs should be accepted.
              groups of physicians, such as medicalspecialty             Educational programs carried out with
             societies, by provision of noneducational gifts,            support from industry should present a
             parties, trips, and services.Company promo­                balanced view of treatment options and
              tional practices directed to indi ridual physi­            should not be biased toward a specific
             cians or to professional groups without con­                product or procedure lest they be con­
             comitant educational benefits have the                      strued as a form of paid advertising.
             potential for unduly influencing physicians           c. 	 The sources of support and the relation-
7            and generating a sense of obligation which                 ship between these and the investigator
             could prejudice optimal health care. The                   or speaker should be a matter of public
             College has promulgated guidelines to clar­                record and should be made explicit at the
             ify its relationship to these activities. Indi­            tune of publication or presentation.
                                                                                                                           /
 30           CONTI ET AL.                                                                                       JACCvol.  16, No. I
              TASKFORCEV                                                                                              July 1990: l-36




 Task Force V:. The Relation of Cardiovascular                                         Specialists to Industry,
 Institutions and Organizations

 C. RICHARD CONTI, MD, FACC, CHAIRMAN, JOHN F. WILLIAMS, JR., MD, FACC, CO-CHAIRMAN,
 JEFFREY L. ANDERSON, MD, FACC, HARRIS A. BERMAN, MD, FACP, 

 ROLF M. GUNNAR, MD, FACC, GERALD P. HERMAN, MD, FRED W. LYONS, JR., 

 EUGENE R. PASSAMAN;, MD, FAX, PHILIP R. REID, MD, FACC, MARK E. SILVERMAN,                                                 MD, 

 SYLVAN LEE WEINBERG, MD, FAGC, LEE YERKES 





                         I. General                                         II. 	 Industry-Sponsored Programs
                                                                                        or Conferences
      The delivery of cardiovascular care has undergone dra­
   matic changes. New technologies, therapies and systems for
  health care delivery have emerged and have done so largely           Much of our educational activity is financially supported
  through cooperative efforts of our profession and industry.      by industry. in general this has been beneficial for physician
  These developments have benefited our profession, the            education, and continued support for these activities should
  industry and, most importantly, our patients. Further devel­     be encouraged. However, the primary objective of such
 opment will require continued cooperative efforts. Yet            programs must be educational. Programs should not be used
 such efforts are threatened by increasing concerns regard­        to promote the products of the sponsor. Selection of topics
 ing the motives of those involved (l-3). Enormous amounts         and discussants should be determined by the medical direc­
 of money are involved in health care (approximately 12% of        tor of the program or the staff to which the presentation is to
                                                                   bc made. Honoraria for faculty participants should be in
 our gross national product or $550 billion in 1988;..ir’r.jLI­
                                                                   keeping with the participants’ contributions. Honoraria and
 cians largely control how this money is allocated. Therefore
                                                                  induccmcnts for audience attendees should not be accepted.
 it is not surprising that industry devotes much of its markct­
                                                                   Payment of expenses for attendees may be acceptable in
 ing to physicians to influence prescribing habits and pur­       situations consistent with educational objectives with appro­
 chase of their products. Physicians and their patients benL,lt   priate accrednation. For example, appropriate situations are
 from these activities when the relation between pbyslcians       those in which the attendees are faculty participants and in
 and industry is based on ethical principles ,qd mutual           which the program control and selection of attendees is
 respect.                                                         dctcrmincd by physicians, without restriction by industry.
     Ethical behavior ultimately is an individual decision but    Lavish entertainment and gifts are inappropriate. Expenses
it must be appreciated that it is the perception ?y patients,     should not be paid or reimbursed for spouses or guests of
health policy makers, the media, and others, of our ethical or    attendees. Provision of meals as part of a meeting is an
unethical behavior that will determine society’s response.        acceptable practice. Speakers sponsored by industry should
The cardiovascular community (physicians, industry. insti­        bc identified in the program or at the time of the presenta­
tutions and organizations) has a special obligation to help       tion.
define the boundaries of ethical behavio: in their relations.
A guiding principle for physicians must be that their deci­
sions about patient care are determined by the health needs       B. ltldl4.~try-iniiia[ed   Conferences
of the patient and not based on inappropriate monetary.               Particular attention should be given to conferences orga­
scientific or academic gains. Physicians must r.ot be influ­      nized and conducted directly by industry. Physicians partic­
enced by any incentives that would cause them to act in a         ipating as faculty in such meetings have an obligation to
manner contrary to their best professional judgment. What         present scientifically balanced information. They are fre­
follows are guidelines to assist those who must make deci­        quently well recognized leaders in the field whose recom­
sions relating to ethical behavior and conflicts of interest in   mendations are readily accepted. Their comments must not
                                                  ‘.
this area.                                                        be subject to approval or censored by the sponsoring com-

Reprinted        with   permission     - from
                                           --   the --American
                                                            ..-    College
                                                                         _^^^ of __Cardiology
                                                                                    - _r ._              -   ^^ ^^.
I-        -      -.
JACC Vol. 16. No. I                                                                                    CONTI ET AL.         31
July i!YM:I-36                                                                                        TASK FORCEV




pany. It is acceptable to have a reputable and accredited            III. Publications Sponsored by Industry
teaching institution endorse the conference. The program             Most scientific journals receive significant financial sup-
chairman should be responsible for final selection of topics     port from industry advertising. Such support is necessary
and discussants. Conferences devoted to a single drug or         and appropriate if it does not influence editorial decisions.
device produced by the sponsoring company may be appro­          Furthermore, publication of proceedings of educational pro-
priate if no other treatment alternatives are available or       grams supported by industry is common practice. Publica­
special procedures are required for proper utilization. How-     tion of these proceedings may be of value, but there is the ,
ever, conferences devoted to a single drug or device in          potential for the presentation of biased information. Publi­
therapeutic categories in which other equivalent treatments      cation of these proceedings should be subject to peer review
are available should be discouraged unless strict guidelines     in a manner similar to that of unsponsored manuscripts
are enforced; for example, the conference is advertised as       submitted to that journal. Proceedings to be published di­
such and attendees pay their own tuition or expenses. or         rectly by industry should undergo review by the faculty
both, to attend.                                                 involved or an independent group of authorities.
   Those invited to attend an industry-initiated. program
should not expect or accept inducements to attend. High
quality industry-sponsored programs do not require inducc­                                IV. Gifts       ’
ments to obtain attendees. The practice of accepting cash
                                                                     Gifts lo physicians may represent appropriate gestures or
incentives to attend is to bc condemned.
                                                                 inappropriate acts. The principles to be employed are the
                                                                 reasonableness of the gift or payment for the service ren­
                                                                 dered and the gift’s effect on physician decision making. The
C. Physician-Initiated      Program                              following examples are used to illustrate these concepts.
                                                                     Small gifts. Physicians frequtntly receive small items,
    Many educational programs are physician initiated but
                                                                 such as pens, notepads or appointment books, from industry
totally or partially sponsored by industry and frequently held
                                                                 representatives. These usually are given when the repre­
at resorts or attractive locations as an inducement for
                                                                 sentative discusses their company’s product with the physi­
physician attendance. Many such conferences could not be
                                                                 cian. Inductry views these items as important for product
held if it were not for industry support, and acknowledgment
                                                                 recognitior,. This is acceptable practice.
of that support is appropriate. It is particularly important         Large gifts. It is an increasingly common practice to
that these programs are organized and conducted primarily        encourage physicians to use a certain product by linking the
as e&:ational events. The program chairman should be             use-of that product to inappropriately valuable gift> and
responsible for selection of topics and discussants. Attend­     finaricial or other rewards. For example, physicians may
ees not participating as faculty should pay tuition and travel   receive financial incentives such as frequent fly,, ;,:ograms
d:pP   :lsic                                                     or direct cash payment if they prescribe a speci;lc drug orand
                                                                 for a small number of patients and then complete a short
                                                                 form describing the result. These “studies” rarely have
                                                                 scientific v4ue and are designed primarily to e-,ourage
D. II: Astry     and Trainees
                                                                 physicians ‘.o prescribe the drug. Provision of t:le drug free
    Previous comments pertaining to physicians and their         to the patirnt does not justify this prac:?e.
relation to the health care industry also apply to physicians        Reimbursementfor surveillancr z!:.*i&. However, it is
in training. However, the latter may be particularly suscep­     appropriate to reimburse physicians participating in legiti­
tible to marketing efforts. Supervising physicians, particu­     mate postmarketing surveillance studies (phase IV) that are
larly directors of training programs, should take an active      guided by protocols approved by institutional review boards.
role to assure that ethical principles are adhered to by all     These studies can be an important part of the continuing
parties. Pharmaceutical companies frequently provide meals       development of a product.
at educational programs conducted for physicians in train­           Hospitality suites at medical meetings, These are com­
ing. Representatives of the companies are often permitted to     monly provided and are acceptable if they are primarily used
briefly present product information at these conferences.        for social functions.
This is an acceptable practice if all pharmaceutical compa­          Consultation feesfor physicians’ services. These are ac­
nies that wish to participate have equal opportunities to do     ceptable practice provided the fee is commensurate with the
so and if supervising physicians are in attendance to ensure     services performed.
a balanced presentation. The direct personal acceptance of           Market researchfocus groups. These are common prac­
meals or entertainment at functions without a significant        tice. Individuals are usually paid for participation in the
educational component is discouraged.                            focus group, which is an acceptable practice if physicians’
/
     32         CONTI ET AL.                                                                                           JACC 	 Vol. 16, No. I
                TASK FORCE V                                                                                                  July 1590: l-36




     comments are uninfluenced by the sponsoring organization            of care provided by an institution regardless of financial
     and honoraria are in keeping with the service provided.             incentives to the physician.
         General guidelines for giving and accepting gifts. Any-            As a result of the intense competition for patient revenue,
    thing given to physicians by industry should not be I) a             physicians may be subject to pressures from institutions to
    reward for selecting a specific product; 2) an incentive for         increase such revenue. This is particularly true for physi­
    selecting a product otherthan on scientific grounds (educa­          cians salaried by or under contract to institutions such as
    tional material about a product is an acceptable form of             managed care facilities and faculty practice plans. The
    incentive); 3) out of proportion to a need, for example,             practice of publicly comparing physicians by revenue gener­
    foreign trips to view a facility or equipment. The recommen­        ated. hospital revenue saved or procedures ordered is often
    dations of the Royal College of Physicians that acceptable          designed to enhance profits, with a disregard for the quality
    gifts are those that are “inexpensive and related to the            of patient care. Institutions should be concerned primarily
    practice of medicine” are appropriate: “. . . a useful crite­       with the quality of care provided by their physicians. Con­
    rion of acceptability may be-would you be willing to have           versely, physicians must have an awareness of the financial
    these arrangements generally known?” (4). Physicians                pressures institutions are under and avoid unnecessary over-
    should not accept or demand lavish gifts such as dinner or          or underutilization of resources. Physicians have an obliga­
    entertainment to discuss a representative’s product.                tion to cooperate with administrators in determining cost-
                                                                        effective strategies for their institution.

            V. Physician Ownership of Health
                      Care Facilities                                        Phy,icians are generally members of several professional
         The economic philosophy of our society not only sup-           organiz;tions or societies. Physicians in positions that influ­
     ports but encourages individual economic investment. Phy­          ence the activities or decisions of these organizations must
     sician participation in the ownership of health care facilities,   avoid any potential conflict of interest. Organizations should
    such as imaging centers and mobile cardiac catheterization          insist on and physicians agree to disclosure of any arrange­
    laboratories, is increasing. Although currently legal, there is     ments they or their immediate families have with the corpo­
    considerable debate as to whether physician ownership of            rate sector that could lead to conflicts of interest, for
    facilities to which they refer patients is ethical. The potential   example, the holding of stock, equity interests, directorships
    for unethical behavior or the appearance of a conflict of           or consulting relations with a company. Obviously physi­
    interest occurs whenever physicians gain financially from           cians must avoid partlclpating in decisions that affect com­
    their patients’ expenses for services the physician orders but      panies in which they have financial arrangements. These
    does not provide directly. It appears that patients generally       precepts do not imp!, ?hat physicians should not have
    are unaware of their physician’s involvement in these facil­        financial relations w’it;l mdustry but that these relations must
    ities. Physician involvement in such activities may bc ac­          be revcalcd bcforc situations occur in which there is poten­
    ceptable if these activities clearly improve patient cart           tial conflict of interest.
    above that available in the community. It is mandatory that
    physicians disclose to their patients their financial interest in
    such facilities.                                                        VII. Ph,kcisns, Industry and Research
         Unfortunately health care facilities are often developed in         Physi,::? ,.I% indispensable to the health care research
    areas that already have adequate facilities. The introduction       conducted bj industry. The maintenance of scientific integ­
    of new facilities without evidcncc of need will incrcasc            rity by all partics in these endeavors is essential. Industry
    medical care costs-this in itself is unethical.                     must utilize proper safeguards that assure that they do not
                                                                        influcncc results of the sponsored research. Physicians
                                                                        should not have arrangcmcnts with industry, such as stock
          VI. 	 Physicians’ Relation to Institutions                    or equity interests, that would result in financial advantage
                      and Organizations                                 based on the results of the study.
                                                                            The use of inside information for personal gain by physi­
    A. Institutions                                                     cians involved in research or data review is both illegal and
        Hospitals depend on physicians to maintain an adequate          unethical.
    patient base. Today, a large number of hospital beds are                When participating as an investigator in industry-
    unfilled and competition for patient revenue is intense.            sponsored single investigator clinical research or multicenter
    Increasingly, institutions are awarding incentives to physi­        trials the investigator I) should not be given personal incen­
    cians in order to attract patients. Physicians should deter-        tive payments or rewards for accomplishing a research
    mine where to refer their patients on the basis of the quality      protocol; 2) should not hold direct significant financial inter-
JACC Vol. 16. No. I                                                                                                 CONTI ET AL.               33
July 1990:l-36                                                                                                     TASKFORCE V




est of any kind in the product under investigation: 3) should           6. Relation of physiciansto institutions and organizations
have a role in choosing the safety and data monitoring                  A. Institutions referral. Physicians should base decisions
committee; 4) may participate in “postmarketing (phase IV)          of where to refer their patients on quality of care issues and
research” of the product investigated; 5) must divulge pay­         the ability to provide better care. regardless of financial
ments to patients to the institutional review board; 6) may be      incentives lo the physician.
considered as a “preferred” speaker relating to the clinical           B. Organizations.      One must avoid participation in deci­
research; and 7) should be cautious about prcmaturc promo­          sions affecting companies in which one has financial arrange­
tion of a drug through lectures, news media or other means.         ments.                                                          .
                                                                        7. Physicians,industry and research
                                                                        Physicians should not hold direct, significant financial
                      VIII. Conclusions                             interest of any kind (including equity interest) with a com­
   The following are guidelines for ethical behavior of car­        pany whose product is under investigation.
diovascular specialists relating to industry. institutions and          Physicians hold a favored position in society because
organizations.                                                      society perceives us as being unique. We have the ability to
   1. Genen!.                                                       cure their diseases, alleviate their suffering, allay their
   A guiding principle for physicians must be that their            anxieties and our rewards for doing so are considerable.
decisions about patient ca;e are not based on monetary.             Only as long as society perceives these to be our primary
scientific or academic gain. Physicians mus; not be influ­          goals will we retain this favor of society.
enced by external financial incentives in such a way that
would cause them to act in a manner contrary IO their bcs~
professional judgment.                                                                            References
   2. Industry-spon. .xed programs or conferences
    The primary objective of such pograms must bc cduca­            I. 	 Brickcr
                                                                               EM. Industrial marketing and medical ethici. N Engl J Med
                                                                       iYXY:3!0: IhYIl-2.
tional, and the programs should not be used as promotional
                                                                    7-. Inglehart JK. Health policy report: the debate over physician ownership of
tools.
                                                                       heallh care facilities. N Engl J Med IYHY:32I:IYX-204.
    A. Indusrry-inifiared   conferences.  Physicians participat­
                                                                    3. 	 Blcndon RJ. The public’s view of the future of health care. JAMA
ing as faculty members in such meetings have a special                 IYXX:!.5Y:?~P7-Y3.
obligation to be sure that unbiased information is presented.
                                                                    4. 	Repon of he Royal College of Physicians. The relationship between
    B. Physician-initiated    program.   Programs must be or­           phySiCiNN dnd the pharmaceutical industry. J R Coll Physicians Lond
ganized and conducted primarily as educational programs.                1986:20:235-42.
Industry should not specify speakn:; or topics. Attendees
should pay tuition and travel expenses.
    C. Industry and trainees. Supervising of physicians. par­                                Selected Reading
ticularly directors of training progra7.s. sl:,uld take an active
role in assuring that ethical principles are adhered to by all      I. 	 Relman AS. Dealing with conflicls of inreresl. N Engl J Med 1985:310:
                                                                         1182-3.
parties and that material is presented in a balanced way.
                                                                    2. Goldlinger SE. A mailer of influence. N Engl J Med 1987:316:1408-9.
   3. Publications sponsoredby industrv
   Publications should be subject to geer review.                   3. 	Egdahl RH Taft CH. Financial incentives lo physicians. N Engl J Med
                                                                        lY86:315:%-61.’
   4. Gifts from industry
    Acceptable gifts are thibJ: that are “inexpensive and           4. 	Morreim EH. Conflict of interesl: profits and problems in physician
                                                                        referrals. JAMA lY89:262:390-4.
related to the practice of meoicine . . .-a useful criterion of
                                                                    5. 	Kelman AS. Antitrust (aw and the physician entrepreneur (editorial).
acceptability may be-would you be willing to have these                 N Engl J Med 19X5:313:884-5.
arrangements generally known?” (4).
                                                                    6. 	Hyman DA. Williamson JV. Fraud and abuse. Setting the limits. N Engl J
   5. Physician ownership of health care facilities                     Med IYX9:3~0:1272-8.
    Such ownership is acceptable if it clearly improves pii­
                                                                    7. 	Healy B. C;:mpeau L. Gray R. et al. Conflict-of-interest guidelines for a
tient care above that which is available in the community.              multicenter tlinical trial of treatment after coronary-artery bypass-graft
Disclosure of ownership to patients is mandatory.                       surgery. N xngl J Med 19X9:320:949-51.
 GUIDELINES FOR COMMERCIAL SUPPORT OF CONTINUING MEDICAL EDUCATION
        (Revision of guidelines previously approved by ACCME: June, 1984)

 PREAMBLE

The purpose of continuing medical education (CME) is to enhance the physician’s
ability to care for patients. It is the responsibility of the accredited sponsor of a CME
activity to assure that the activity is designed primarily for that purposs.

Accredited sponsors often receive financial and other support from non-accredited
commercial organizations. Such support can contribute significantly to the quality of
CME activities. The purpose of these guidelines is to describe appropriate behavior of
accredited sponsors in planning, designing, implementing, and evaluating certified
CME activities for which commercial support is received.

GUIDELINES

1. 	   Accredited sponsors are responsible for the content, quality, and scientific
       integrity of all CME activities certified for credit. Identification of continuing
       medical education needs, determination          of educational objectives, and
       selection of content, faculty, educational methods and materials is the
       responsibility of the accredited sponsor. Similarly, evaluation must be designed
       and performed by the accredited sponsor.
2. 	   The accredited sponsor is responsible for the quality, content, and use of
       enduring materials for purposes of CME credit. (For the definition, see ACCl!?C
       ‘Guidelines for Enduring Materials.“)

3. 	   Presentations must give a balanced view of all therapeutic options. Use of
       neneric names will contribute to this impartiality. If trade names are used, thosa
       of several companies should b8 used rather than only that of a s_[ngle
       sponsoring company.
4. 	   When commercial exhibits are part of th8 overall program, arrangements for
       these should not influence planning nor iriterfere with the presentation of CME
       activities. Exhibit placement should not be a condition of support for a CME
       activity.

5. 	   The ultimate decision regarding funding arrangements for CME activities must
       be the responsibility of the accredited sponsor. Funds from a commercial
       source should be in the form of an educational grant mad8 payable to the
       accredited sponsor for the support of programming.   However, all support in
                 relation to the certified CME activity must be made with the full knowledge and
                approval of th8 accredited sponsor. Payment of reasonable honoraria and
                 reimbursement of Out-of-pOCk8t expenses for faculty is customary and proper.
                Commercial support must be acknowledged in printed announcements and                    .
                brochures, however, reference must not b8 made to specific products.
                Following the CME activity, upon request, the accredited sponsor should b8
                prepared to report to 8aCh commercial supporter and other relevant parties, and
                8aCh commercial supporter to th8 accredited sponsor, information concerning
                the expenditures- __.
                                   of funds 8aCh has provided.
                                                         -_-            _ ___-       --      -_~.
                            L-
        6. 	    Commercially SuppOn8d social events at CME activities should not compete
                with, nor take precedence over, the educational events.

         7. 	   An accredited sponsor shall ha!!8 a policy on conflict of interest applicable to
                CME activities. All certified CME activities shall conform to this policy.
        8. 	    In an activity offered by an accrs lited sponsor it is not permissible to provide for
                travel, lodging, honoraria, or personal expenses for attendees. Subsidies for
                hospitality should not be provided outside of modest meals or social events that
                are held as a part of th8 activity.

                Scholarship or other special funding to permit medical students, residents, or
                fellows to attend selected educational conferences may be provided, as long as
                the selection of students, residents or fellows who will receive the funds is made
                either by the academic or training institution cr by the accredited sponsor with
                the full concurrence of the academic or training !:lstitution.


          Approved by the ACCME
          March 16, 1991                                                                            -
--   -- --- - --. --

        These Guidelines were approved by th; .Unt Task Force on Pharmaceutical
        Industry/CME Provider Collaboration, F2x~ry 15, 1991.




                                                     -2-

American   Surgical   Association
                                                                                                              April           21,        1987




                                            1’11f* Atllr*ri\3\\             S\irgic:\I hss\iri;\lioii             Il;\s co\\sitl\*rc-tl 111~
                                    c*tllic:tl ilnplic;\tio\\s                  of \\\nrkrti\\g            pr:\cticc*s of ~o\\\l~:\t\i\~r
                                    pim\~itlii\~ itt~tlc~ri;\l t\c-cess;\ry it\ III\- c:\rc* of s\trgic:tl II;\­
                                    lic,ttts. For )‘c-:trs s11cl1 co\npa\\ics                              II;\VC hcrn IwII~~~;I~~oI~s
                                    of zttrK:c*ry Iltt~011~11ncliotts sitpportittg                                 tencltittg.     gr:\tltt:\lc~
                                    It.:tillitt~ of s\tr~t~otts. nl\cl SUrfiiCi\l rcsc;\rclt. Sttlisiclirs li;\\*t~
                                    t*t11~1t1:11t~tlprittc*ip;\lly                   fruit\ corpot.;\lc              I~oclics ni\tl wt’rt’
                                    ~i~o~.itlt*\l It1 grotips, sociclit5.                          ;rncl ;\c;\tlc~t\tic clc*p:\rltt\t~ttls.
                                    IO ~~1~011101t~             ~tiocl will tow;\rrl corptmlc                         t~;\~\tcs.
                                            Iii rrcriil          yt*;trs (Iir praclicr of cut\cctttrnlitt~                      OII ~~roclttc~l
                                    l~rt)tt\ttlitlt\            l)y I;\rgrLi\\g            i\rtlivici\\;\l      s\\rg!ro\~s II;\s l~c*\r
                                    ittt*t.t*;\sittgI!. t*viclc*t\l. II is II\c* ittiplict\liot\s                          of Iltis ~I:III~~
                                     iii :l~l~~l~0;ll~ll Ilt:lI Ili1S IWcOlllP                      ;I c3iit~c~rtt of lltc* hrttt~ric~:ttt
                                    StIrgit.:tl A<sot~i;tlitttt. As n rc:sttll. IIIV Associ;\tiott                                 fc*cls IIN-
                                     Ilt.:\t’lic~t* 01’ I~t~tivitlitt): clirc*cl ~~il~l111'1l1                    to s\ir~c~\~\\s for tll(-
                                     IIIII     IIO~I*S     III' pt‘fittirtlittg       :\ protlttcl is itot it\ 111~7          hl     itilc~rcst
                                     01 1>;11       ic*tll<. 01 III<* prfift-ssioti of stttpry,                      or of Il\c it\lrt\tlf~tl
                                     I r.u.if)it.lbl rll’ IIic* sitljsitly.                    :\iitl tttitst Itr cttttsiclr*rc~tl :\s
                                      Ildlr~lltic.:ll jjt:it’lic.c- if IIIV \*\llicw\\c*\\t                           is ;~cccp~rcl. TIIV
                                      II~,I.(I ltji. ii~tlilslr~ to ptmii\t~lr its prod\\c\s is well uicclc-r­
                                     sl~~o~l. Iii11 IO \I0 so Iiy allcmpLc\l                             pcrsunsion of iticlivitl\t~\ls
                                      1111oii~li \III~~:II~II\Y~ \\\o\\cl:\ry                       or ollicr rrwnrcl lins lo lw
                                      c.ollsi(lt*wcl :IS :I forttt of hril)cry. Tl~c prt~tttotiott;\l                                     t*ll’orl
                                      is ;\illi\*tl al i\i~l\\\~\iciitg Ilir j\\cl~\\\~~i\l of llir rccipic*\\l \vllf)
                                      is Ixtid for ;~.llo\vittg ltitttsrlf (0 IIC s\\l)jrctrd                            lo lltc ittcl\tslry’s
                                      ptmtttotiutt;\l               ittllurttcc.        Tlw ct~cl rrsult 111ny 1~ n loss ttf
                                      ol,jc-c.ti\~iI\- sc*c.ottcl;\ry 10 IJi;\s evokrcl I)y 111~ cttticctrtc~t\I.
                                      Ct)tisiclrrittg              IIIV itttportt\ttcc~ of tlccisiotis itttpx-tlttg                      Ott III<.
                                      C':Il'('      of    p:t\ic*ttts. 11th pclssil)ili\y                    is IIO~ nccrptnlJc*.              Ttj
                                      clislillcilizli            Iic~lwc~rii wllnt is i\CC.Cl)l:\l)lC :I\111 WI\:11 is IlOl.
                                      I/I(* f’ollo\t~illg posiliott                  1~1sIJWII Inkcn:

                                           II is llir posilioii         of Ll\c A\\\rric;\ii      S\irgic;ll Associ:\liot~
                                    Ili~il it is \ii\rlliicnl          for n sr\rpw\\        to nccrpt rr\i\\i\ic*rnlio~~
                                    or ttx\lt*ri:tl rc*\v:\rcl fur pitrlicipidiltg             it\ ntlvrt~lisittg or olll(*l
                                    protl\t~l        pt~tttt\tilic~t\nl    nctivity     of t\ I\et\llll         cnrr-rt-l;tlt’tl
                                    iitcl\isl\.y. will\ no rdntio\\sl\ip              lo proftxisio\\:rl        scrviw        rt*\i­
                                    clrrrcl Iiy llir s\irgrot\. “Ih\\ut\er:tlic~\i                 or tn:tlc~rinl rrw:\t.tl”
                                    is titr~\ttl lo iiitply tno\tcy. gins, fimtuilies                   SUCII ns vnc:\liott,
                                    tr:\vrl.      or oll\c*r etnolut\~cttls.            Acceptnl~lc          “profcssiot\:\l
                                    srrvicrs rrtitlrrrcl”             include lmin MC cot\s\tltntiott                services;
                                    It*C:\l lt*slitt\cn\y ctf qudificcl            spccidty       coimtltnrtts;       procl\tc.l
                                    Irsliiig        c~v;tl\t;\lit~t\, &=vrlopii\o\t,            nticl experitnrttl:\l             or
Ixxvii
 Reprinted            with      the    permission            of     the Infectious                 Diseases         Society       of America,       the
 Journal         of     Infectious         Diseases,              and the University                     of Chicago           Press (Journal        of
 Infectious            Diseases,          1984,    Vol.           150,  792-793)




Statement on Ethical Conduct in Research by the Infectious Diseases
Society of America                                                                                                                      .

  it is stated in the By-Laws of the Infectious Disear:s                         research involving       the participation      of human sub.
 Society of America that individuals              are elected ‘.o                jccts. impartial      review of all such proposals by a
  membership or fellowship “on the basis of evider,cc                            third party should be mandatory.
 of high professional       and ethical standards,”              and                 funding:   Whcncvcr possible, defrayal of inves.
 the Society considers ethical conduct IO be an im­                              tigalional   costs should bc institutionalized.           Funds
 plicit requirement     of continued       membership.          P:o-              from the donor should flow through institutional
 vision exists also in the By-Laws for the expulsi.)n                            channels (univcrsi(y,        hospital)     rather than being
 of any member for cause. In an era of heighten,:d                               naid dire&-      10 I hc investigator.     All financial trans.
 concern over the ethical aspects of conduct in a                                actions should bc subject IO audit and available for
 highly      complex   society, involving          relationships                 public disclorurc       if and when appropriate.          Funds
 among individuals,       educational       institutions,       hos­             acccpred for specific purposes should be utilized
 pitals, private corporations,        and government,             the            solely for those purposes and should not be di.
 Society has attempted        to identify certain featcres                       vertcd for personal or for ihstitutional           use for pur­
 of these relationships      requiring careful considera­                        poses other than those stipulated             under the terms
 tion by the parties entering into them. The Society                             of.the award.
 recognizes its inability    to legislate the morals of its                    I PuhXalion          01 Resdts: No contract should be
 members and of those with whom they interact                       II         ?ntered into that rcstrlcts the prompt disclosure of
does expect, however, that each member recogr‘ze                               -findings that affect, in any way, the public welfare,
his/her full responsibility      to the Society and to the                      ‘Disclosure of support from a sponsor with a vested
medical profession to maintain standards of con-                               intercsr in the outcome of any investigation               should
duct that will stand full public scrutiny.                                       always accompany oral presentation              or publication
     To assist members in achieving this desideratum,                            of rcsitlls.
the Society has identified a number of areas whcrc
attention to the concepts and procedures set forth                              Pcrsonul Condurl
may help to avoid misunderstandings                 and percep­
                                                                               Mcmbcrs of the Socrcty should be constantly sen­
tions of questionable      or of improper conduct. T~)s
                                                                               sitive to [hc need not only to do no wrong bllt also
latter goal is best achieved, perhaps, through ;hc
                                                                               to the need not In ~.i:p :hc appearance of doing
use, whenever possible, of peer review and of lull
                                                                               wrong.
disclosure of relationships        established       for the fur­
                                                                                   (A) In fulfilling     functions in which there may bc
therance of scientific investigation.          To assist mcm­
                                                                               rhc appearance        of a conflict       of interest, full dis­
bers who do not have suitable institutional                affilia­
                                                                               closure of rclnrionships          P-nong the involved partics
tions for the purposes described, the Society sho:ld
                                                                               should be made.
consider the establishment           of committees           or of
                                                                                   (B) Inrcra-‘ioqq       between industry and members
panels to fulfill these functions for members who
                                                                               of the Crcirlv tind their affiliated           institutions    may
request them.
                                                                               be mutual!y        beneficial.     Such relationships       should
                                                                               always be disclosed by members of the Society who
Research Proposals
                                                                               are involved in any governmental             advisory or regu­
   Conlenl:   Whether initiated   by the investigator                          latory process. Because members of the Socict!
or by another individual     or agency, the proposal                           mosl knowlcdgcablc             abour a given drug or dcvicc
should be subjected to peer review by an accz>t­                               and most frequently           called upon IO testify about ir
able agency that does not have a vested interest in                            arc often those most likely to have had some con-
the outcome of the investigation.                                              tact wit;i its manufacturer,           they are the ones also
   Human Su&‘ecf.sz Evidence of compliance         with                        at grcatcst risk of finding themselves confronlcd
existing regulations should be documented       for all                        with a conflict of intcrcst. Such conflicts may arise


[Edifor’s note. This statement on ethical conduct was developed                                 by a subcommittee appointed by the
Council of the IDSA. It has the full endorserrent of the Officers                               and Council members of the IDSA.


                                                                         792
                                                                                                                              793




  out of subtle and seemingly insignificant           relation-    are in preparation       of material subject to editorial
  ships that are nonetheless opnn to varying interpre­              review prior 13 publication.       Investigators     should be
  tations when subjected to public scrutiny. If 2nd                especially sensitive to the potential          conflict of in­
  when potential for conflict exists, a member should              terest arising from the written or verbal endorse­
 consider declining to testify unless such testimony               ment of products for the study of which they have
 is both essential to the -public interest and is pre-             received financial support from industry. While it
 ceded by a statement              describing  all potential       is evident that peer review and opinion will rectify,
 conflicts.                                                        in time, erroneous or biased views (the professional
     (0 Individuals       should guard against excessive           integrity    of the faculties of the medical schools
 reimbursement       for services to industry;      e.g., hon­     being probably        the strongest ethical force in the
 oraria for lectures, fees for consultation,          and per­     system), harm may result in the interval between
 quisites for attending meetings or other sponsored                presentation     and its rectification.
 activities. Acceptance        of such honoraria      and fees        (I;) Individuals     whose speaking engagements are
 should be in accordance with the regulations of the               funded by industry should encourage industry to
 individual’s    primary     employer.                            support institutions        seeking speakers, so that the
     (D) Individuals     engaged in consultative       or con­    latter institutions      may make their own selections
 tractual activities     with industry should recognize           and have direct financial          dealings with speakers.
the implications       of other financial     relationships,      Speakers receiving honoraria directly from entities
such as the ownership           of stock in companies they        that support their work or in which they have a
                                                         I
are advising.                                                     financial interest should consider filing with their
    (E) Individuals       Iiaving financial    relationships      brimary       employer     (or the Society)        a periodic
with industry should be equally careful in choos­                 itemized accounting        of such stipends, to be availa­
ing the content of material for oral or written pub­              ble for public scrutiny.
lic presentation     not subject to prior review as the)
                             APPENDIX                    C

                                  Methodological Notes

1. 	   INTERVIEWS:        We asked each CEO to arrange for us to speak with at least
       one of each of the following: the chief of the medical staff, the chief of
       pharmacy, the director or supervisor of medical education, the chief resident,
       the chief infectious disease specialist, a member of the institutional review
       board, a member of the ethics committee, a cardiologist, a gastroenterologist,
       a psychiatrist, an internist (preferably a geriatric specialist), a pediatrician, an
       obstetrics or gynecology specialist, and a surgeon.

2. 	   GUIDELINES:        We contacted or attempted to contact all the medical
       organizations listed in Sourcebook on Health Occunations to inquire about
       their guidelines. This amounted to almost 30 major medical organizations.




                                          C-l
                            APPENDIX                  D


                                       Endnotes


1. Senate Labor and Human Resources Committee hearings on Pharmaceutical
Advertising, Marketing, and Promotional Practices, December 11-12, 1990.

2. By promotional, we mean any activity that is intended to change physicians’
prescribing based on other than purely scientific information.

3. K. Feather, “Ask the FDA: Can We Use This Study Promotionally?” Medical
Marketing and Media, April 1990, pp. 52, 54, 56.

4. Hospital grand rounds, department meetings, professional organization meetings,
stand-alone educational and promotional seminars, dinner meetings, and round-table
discussions are all forums for physician speakers who are sponsored by
pharmaceutical companies.

5. E. Hemminki, “Review of Literature on the Factors Affecting Drug Prescribing,”
Social Science & Medicine 9 (1975): 111-116.

6. K. Leffler, “Persuasion or Information? The Economics of Prescription Drug
Advertising,” Journal of Law and Economics 24, no. 1 (1981): 45-74.; J. Lexchin,
“Pharmaceutical Promotion in Canada: Convince Them or Confuse Them,”
International Journal of Health Services-17; uo. 1 (1987): 77-89.; D. Christensen, and
P. Bush, “Drug Prescribing: Patterns, Problems, and Proposals,” Social Science and
Medicine 15A (1981): 343-355.; E. Hem,;l&ki, “Review of Literature on the Factors
Affecting Drug Prescribing,” SociaZScience and Medicine 9 (1975): 111-116.; and G.
Keele, “A Survey of the Effects of a Drug Promotion Campaign,” Journal of the
Royal College of General Practitioners 26 (19”s): 382-386.

7. D. Christensen and A. WertheimL8-r;Sources of Information and Influence on New
Drug Prescribing Among Physicians In an HMO, ” Social Science and Medicine 13A
(1979): 313-322. and M. Peay and E. Peay, “Differences among Practitioners in
Patterns of Preference for Information Sources in the Adoption of New Drugs,”
Social Science and Medicine 18, no. 12 (1984): 1019-1025.

8. M. Bowman and D. Pearle, “Changes in Drug Prescribing Patterns Related to
Commercial Company Funding of Continuing Medical Education,” The Journal of
Continuing Education in the Health Professions 8 (1988): 13-20.

9. J. Mackowiak and J.P. Gagnon, “Effects of Promotion on Pharmaceutical
Demand,” Social Science and Medicine 20, no. 11 (1985): 1191-1197.


                                         D-l
 10. J. Avom, M. Chen, and R. Hartley, “Scientific Versus Commercial Sources of
 Influence on the Prescribing Behavior of Physicians,” American Journal of Medicine 73
 (1982): 4-8.

11. M. Chren, C.S. Landefeld, and T. Murray, “Doctors, Drug Companies and Gifts,”
Journal of American Medical Association 262, no. 24 (1989): 3448-3451.

 12. S.E. Goldfinger, “A Matter of Influence,” New England Journal of Medicine 316
 (1987): 1408-1409.

13. Gifts to Physicians from Industry, American Medical Association, Council on
Ethical and Judicial Affairs, Report G, Adopted 12/4/90.

 14. R.E. Hit, and J.A. Bell&i, “Salespeople’s Use of Entertainment and Gifts,”
Industrial Marketing Management 16 (1987): 279-285.

15. A. Shama and J.K. Thompson, “Gifts Build Goodwill and Market Share,” Journal
of Retail Banking 11 (1989): 55-59.

16. M. Bowman, “The Impact of Drug Company Funding on the Content of
Continuing Medical Education,” MOBIUS 6, no. 1 (1986): 66-69.

17. Council on Ethical and Judicial Affairs, “Gifts to Physicians From Industry,”
Journal of the American Medical Association 265, no. 4 (1991): 501.

18. The American Academy of Dermatology, the American Academy of
Ophthalmology, the American College of Physicians, the American Osteopathic
Association, and the !Lnerican Psychiatric Association provided us with guidelines or
bylaws dealing with conflicts of interest or gift arrangements from industry.

19. American Surgical Asbociation, Minutes of the One Hundred and Seventh Meeting,
April 27, 1987, pp. lxxvi - lxxvii.

20. American College of Obstetricians and Gynecologists Committee on Ethics,
Guidelines fo: Re!ationships between Industry and the American College of
Obstetrici;,:: - nd Gynecologists and Its Fellows, ACOG Committee Opinion, Number
45, October 1985.

21. C.R. Conti et al., ‘Task Force V: The Relation of Cardiovascular Specialists to
Industry, Institutions and Organizations,” Journal of the American College of
Cardiologists 16, no. 1 (1990): 30-36.




                                         D-2 

22. Infectious Disease Society of America, “Statement on Ethical Conduct in
Research by the Infectious Diseases Society of America,” Journal of I..fecfh.sDirease
150 (1985): 792-793.

23. Accreditation Council for Continuing Medical Education, Guidelines for
Commercial Support of Continuing Medical Education, Approved March 16, 1991.

24. “Vanderveer Group Adopts Code of Principles in Response to Hill Criticism of
Physician Dinner Meetings and Honoraria; Code Outlines Restrictions on Gifts,”
F-D-C Reports, April 29, 1991.

25. Physicians were asked whether there were any kinds of pharmaceutical company
sponsored education (and, separately, research) that they considered inappropriate.
They were not required to have been involved in the education or research they
were calling inappropriate.

26. Practices outlined include a $20,000 grant extended to a researcher by a
pharmaceutical company to get a study favorable to the company’s product published
(SELF, March 1991); extraordinary marketing pressure placed on physicians to
prescribe TPA (7Ime, March 18, 1991); a research project requiring collecting
minimal information on at least five new patients in return for money (Public Citizen,
March/April 1991); and a circus-like extravaganza put on by pharmaceutical
companies at a hospital pharmacist convention in Las Vegas (American Journal of
Hospital Pharmacists 48, 1991).

27. Merck Sharp & Dohme’s ads appeared in the Journal of the American Medical
Association and the New England Journal of Medicine in February, March, and April
of 1991.

28. T. Randall, “AMA, Pharmaceutical Association Form ‘Solid Frcnr 01, Gift-Giving
Guidelines,” Journal of the American Medical Association 265, no. 18 (May 8, 1991):
2304.

29. Collagen Corp. was planning on sending dermatologists v-rho purchased high
volumes of injectable collagen on an 8 day “educational cT?li+ in the South Pacific
at the firms’ expense in late June, 1991. The promotion was recently cancelled. See
T. Randall, “Not All Drug Firms Subject to Gifts Guidelines, But, for Physicians,
Their Gifts Are Still Taboo,” Journal of American Medical Association 265: no. 18
(May 8, 1991): 2305 and T. Randall, “Promotional Cruise Scuttled in Ethics Storm,
Wome Would-Be Cruisers Claim Financial Damages,” Journal of American Medical
Association 265: no. 22 (June 12, 1991): 2929.

30. The Federation of State Medical Boards currently does not even collect
information on disciplinary actions taken as a result of financial conflict of interest or
other financially oriented ethical violations. (Federation of State Medical Boards
Disciplinary Code List, FSMB files.)


                                          D-3
 31. “MD-Promotion Guideline Implementation Descriied in Letter to Kennedy,”
 Pu4 Newsletter 33, no. 5 (February 4, 1991): 2-3.

 32. TAP Pharmaceuticals gave 700 physicians round-trip airfare, 4 nights’ lodging,
 and registration fees to attend a ACOG meeting in May, 1991. The winners were
 selected in drawings held between August 1, 1990 and February 1, 1991. See T.
 Randall, “Some Promotions Began Before, But Extended Into, Grace Period of
 AMA/PMA Guidelines,” Journal of the American Medical Association 265, no. 18
 (May 8, 1991): 2309.

 33. Infectious Disease Society of America, p. 792.

34. American Surgical Association, p. Ixxvi.

35. W. Parrnley et. al., ‘Task Force I: Background and General Principles,” Journal of
the American College of Cardiology 16, no. 1 (1990): 7-10.

36. Kessler, D. and Pines, W., “The Federal Regulation of Prescription Drug
Advertising and Promotion,” Journal of the American Medical Association 264, no. 18
(1990): 2409- 2415.

37. “Drug Advertising Regulatory Action By FDA Appears Likely: FDA Collecting
Records on Repeat Offenders in Preparation for Setting Object Lesson,” F-D-C
Reports, February 18, 1991.

38. ” . . . The Hit List,” PMA NewsZetter33, no. 19 (May 13, 1991): 1.

39. “Authority Uncertain, FDA Tries to Enforce AMA Promotion Guidelines,” PMA
Newsletter 33, no. 12 (1991): 1.

40. “FDA WiII Set Up Drug Promotion Abuse “Hotline” for Physicians and
Pharmacists; Agency is Still Considering Criminal Prosecutions as Object Lesson.”
F-D-C Repom (April 29, 1991): l-2.

41. “RX Drug Advertising Will Be Tar&F1 of New FDA Enforcement Effort,” PMA
Newsletter 33, no. 9 (1991): 1.

42. “Open Label, ‘Seeding’ Studies for Unapproved Uses Will Be Regulated as
Promotions; FDA is Watching Symposia Setting and Conflict of Interest Issues,”
F-D-C Reports (September 24, 1990): 16.




                                        D-4 

